In the.Supreme Court of the United States
NO: 20-1428
TAMMY NOERGAARD,
Petitioner,
vs.

CHRISTIAN NOERGAARD,
Respondent.

CERTIFICATE OF SERVICE
I, Kenneth Knudsen, hereby certify that on this 15th
day of April, 2021, I served three copies of the Point
Blank Consent for Amicus by mail delivery and one
copy by electronic mail (e-mail) on the following:
Stephen Ruben, Esq.
RUBEN LAW FIRM
625 Market St, Penthouse
San Francisco, CA 94105
Phone: (415) 399-6830,
Email: sruben@rubenlawfirm.com
I further certify that all parties required to be served
have been served.

Kenneth Knudsen
8583 Irvine Center Drive, Suite 312
Irvine, CA 92618
Phone: 949-975-9401
Email: securescanner@yahoo.com

